IN THE SUPREME COURT OF THE UNITED STATES

Clayton Waagner, pro se - Petitioner,
vs.
Unites States of America - Respondent

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

CERTIFICATE OF SERVICE

UU heperd.1*
/

I hereby certified that a true and complete copy of the foregoing Writ for Certiorarf have
been sent via US mail and properly addressed to:
Eugene L. Miller
Assistant United States Attorney
Suite 226
306 South Vine Street
Urbana, IL 61802
This /of November, 2020.

Chr

L. Waagner

